WAIVER

Supreme Court, U.S.
FILED

SEP 1 1 -2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No *44121;24

Melinda Mitchell et al.

A-

City of New York et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
[j] There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

El I am a member of the Bar of the Supreme Court of the United States.
El I am not presently a member of the Bar of this Court. Should a response be 'requested, the response
will be filed by a Bar member.
Signature
Date.

9/11/19

(Type or print) Name

Melanie Tharamangalam WeSt
Mr.

Firm

❑ Mrs. El Miss

New York City Law Department

Address

100 Church Street

City & State
Phone

F Ms.

New York, NY

(212) 356-0842

Zip
Email

10007

mwest@law.nyc.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS • REQUIRED.

CC: Jeffrey A. Rothman, Attorney for Petitioners

RECEIVED
SEP 13 2019
I

OFFICE OF THE CLERK
SUPREME COURT U.S.

SUPREME COURT OF THE UNITED STATES
x

Melinda Mitchell et al.,

AFFIDAVIT OF SERVICE
Petitioner,

DOCKET NO.: 18-588
LAW NO.: 2012-020709

-Versus-

City of New York et al.,
Respondent.
X
STATE OF NEW YORK
: ss.:
COUNTY OF NEW YORK )
Yohance Drakes, duly sworn deposes and says that:
The deponent is not a party to the action and is 18 years of age or older.
On September 11th, 2019 the deponent served the annexed Waiver Form upon
following person or persons:
Jeffrey A. Rothman
315 Broadway, Suite 200
New York, NY 10007
The number of copies served on each of said persons was 1.
The method of service on each of said persons was:
By mailing the paper to the person at the address designated by him or her for that
purpose by depositing the same in a first class, postpaid, properly addressed
wrapper, in a post office or official depository under the exclusive care and
custody of the United States Postal Service within the State of New York pursuant
to CPLR 2103(b) (2).
Yohance Drakes
Sworn to before me this
11th Day of September 2019

AfOs
C°17717, 8.

Cettill'°f Ale s8617er 1.44M8
CointneCe F7/6,4;%tkArt)sode
IVelvV'
i°11
es
jigyork127.22
izoli

